                                                                  United 'tal D paltment of tate
                                                                  and the Broadcastin CT Board of G v nlOr

                                                                  Ojfice of Inspector General

                                                                        OCT 26 2012


MEMORANDUM

TO:              M - Mr. Patrick Kennedy                   ()~

FROM:            OIG - Harold W. Geisel       N~
SUBJECT:         Review of Voucher Processing (ISP-I-13-01)


        Summary

        The Office ofInspector General (OIG) conducted a survey of voucher processing to
assess the Department of State's (Department) use of the Bureau of the Comptroller and Global
Financial Services (CGFS)/Post Support Unit (PSU), I determine the potential for expanded use
of CGFS/PSU throughout the Department, and identify related issues and best practices. This
survey is part of a broader, ongoing OIG review of regionalization and rightsizing in the
Department.

       Use of CGFS/PSU in the Department is largely voluntary and varies among the regional
bureaus. The OIG team found through analysis of International Cooperative Administrative
Support Services (ICASS) data and post inspection field work that it is more economical to
outsource vouchering than to hire or replace local staff. Accordingly, OIG teams have made
formal recommendations to outsource a portion of post voucher workload to CGFS/PSU.

        Despite this finding, the Department has no immediate plans to centralize transactional
vouchering processing to take advantage of the probable cost containment and savings,
economies of scale, knowledge gained as a result of repetitive processing, and improved internal
controls. However, CGFS wants all posts to consider outsourcing to CGFS/PSU as part of their
workforce planning and to conduct a cost-benefit analysis of CGFS/PSU use as attrition occurs
or as vouchering workload increases. Some of the regional bureaus have already instituted this
requirement. OIG believes the Department should make such cost-benefit analysis a required
part of annual workforce planning for posts.

Scope and Methodology

       The OIG team interviewed officials in Department bureaus responsible for management,
decisionmaking, and oversight of voucher processing initiatives, including the Office of
Management Policy, Rightsizing, and Innovation (M/PRI); CGFS; the Bureau of European and

I In July 2012 the Department restructured the Bureau of Resource Management into two bureaus: the Bureau of the

Comptroller and Global Financial Services and the Bureau of Budget and Plalming.
                                                       1
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UN CLASSIFIED

Eurasian Affairs; and the Bureau of East Asian and Pacific Affairs. The purpose of the
interviews was to identify current and planned Department voucher processing initiatives,
including their implementation, goals, and timelines. The OIG team also analyzed ICASS data
and OIG inspection recommendations related to voucher processing over the past 5 years as well
as posts' compliance with those recommendations.

      Team leader Jacqueline James and inspector Tim Wildy conducted the survey between
August 1 and 24, 2012.

Background

        In 2006, the Bureau of Resource Management established a Distressed Post Support Unit
(DPSU) to provide 24-hour!7-day remote financial services and support to posts needing
assistance because of local circumstances, including posts in danger or war zones, those in
transition or struck by natural disasters, as well as posts with high labor costs and heavy
workloads. The DPSU was piloted at Embassy Baghdad. Following this successful pilot, the
DPSU was renamed Post Support Unit (PSU) and expanded to support posts in other regional
bureaus, including Tripoli, Libya, and Malabo, Equatorial Guinea.

        CGFS/PSU currently operates in three locations: Charleston, South Carolina; Bangkok,
Thailand; and Sofia, Bulgaria. With approximately 80 employees, CGFS/PSU provides remote
voucher processing to approximately 111 overseas posts and offers services in accounting and
time and attendance. For vouchering, CGFS/PSU is set up to provide what it calls "one-stop
service," which includes assisting posts with backlogs and surges in voucher volume, enhancing
post financial processing performance, and filling in for certifying officers and voucher
examiners.

        In the FY 2012 Congressional Budget Justification for the Department of State
Operations Volume I, the Department requested funding to support fully the cost of providing
centralized permanent change of station travel vouchering services for posts. The then-named
Bureau of Resources Management noted that this initiative suppolis the Department's goal of
greater centralization, standardization, and regionalization of SUppOli activities, including
                                            2
transactional financial services functions.

Top 8 Global Management Priorities

        M/PRI's Regional Initiative Council, composed of the regional executive directors,
includes voucher processing as one of the Top 8 Global Management priorities for posts for
2012. The primary goal is for posts to reduce costs by moving to remote voucher processing. The
Top 8 Global Management initiatives are the Department's response to pressure from ICASS
member agencies wanting to see ICASS costs decrease. M/PRI's most recent data show that 111
posts have implemented CGFS/PSU for a portion of their voucher processing; 63 posts are in the
process of CGFS/PSU implementation; 59 posts have not started CGFS/PSU implementation;
and at 19 posts CGFS/PSU implementation is not applicable. 3



2   FY 2012 Congressional Budget Justification for the Department of State Operations Volume I, pp. 45-46.
J   M/PRI Web site, Top 8 Priorities.
                                                          2
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Findings

Use of Global Financial Services/Post Support Unit

        Use ofCGFS/PSU is largely voluntary and varies among the regional bureaus. It is
usually a post ' s decision whether to outsource all or a portion of its vouchering function to
CGFS/PSU. In some instances, regional bureaus have mandated the use ofCGFS/PSU for
certain posts (for example, Baghdad, Tripoli, Malabo, and Port-au-Prince). With 111 posts using
GFS/PSU's voucher processing services, it is the largest single vouchering processing unit for
the Department. Participating posts are required to sign an indefinite service-level agreement that
establishes an ongoing and baseline service level, performance standards, and unit cost
information to provide voucher processing services to posts. A service fee charge of $12 per
voucher strip code covers the entire cost of operations.

        The OIG team found through analysis of ICASS data and post inspection field work that
it is more economical to outsource vouchering than to hire or replace local staff. In terms of unit
costs, CGFS/PSU's $12 charge per voucher strip code falls well below the ICASS average of
$34 per voucher strip code. Using these data, three posts (Bangkok, Manila, and Vientiane) have
voucher strip code costs lower than CGFS/PSU's (see Appendices I and II) . Also, seven OIG
post inspection reports from 2007 to 2012 highlighted the economy and efficiency of using
CGFS/PSU (see Appendix III). The inspectors recommended that these posts outsource travel
advances and voucher payment functions to CGFS/PSU. Five posts have complied with the
recommendations, and compliance is still open for two post inspection reports issued in 2012.

        Although it is more economical for CGFS/PSU to process travel and vendor vouchers,
OIG acknowledges that post operating environments vary considerably. Consequently, each
regional bureau has different limitations, implementation rates, and cost containment or
outsourcing goals for voucher processing.
        Despite the potential benefits of using CGFS/PSU, the Department has no immediate
plans to centralize transactional vouchering processing to take advantage of the probable cost
containment and savings, economies of scale, knowledge gained as a result of repetitive
processing, and improved internal controls. The OIG team learned that staffing, office space, and
Department policy are among the obstacles to CGFS/PSU expansion.

        CGFS views PSU ' s delivery of services as consistent with Department regionalization
goals and its own goals to standardize financial processes and systems. The bureau also sees the
benefits of CGFS/PSU services beyond costs, including freeing up financial management
personnel to perform higher value-added and location-specific tasks and performing routine
financial transaction processing work remotely. CGFS believes every post should have a
financial management officer to handle core financial management duties, but financial
processing, or at least a significant portion of voucher processing conducted overseas, is not
needed at all posts.

        However, CGFS maintains it lacks the infrastructure necessary for immediate expansion
to supp0l1 remote voucher processing worldwide and simultaneously maintain customer
satisfaction. Once the current update of the domestic financial system and the follow-on update
of the overseas system are completed, CGFS believes it will be in a better position to expand
CGFSIPSU services.
                                                 3
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        CGFS does not have a strategic plan to expand PSU services or a contingency plan for
full use of PSU in the Department. However, CGFS has steadily increased its voucher processing
workload and, in FY 20 10, fully centralized overseas permanent change of station vouchering
from posts. The bureau says it has worked continuously to expand space and staff to stay ahead
of the growing workload . Additional demands for CGFS/PSU voucher processing services are
absorbed in increments or tiers to allow sufficient time to prepare for and manage workload
increases. However, with its current staffing and office space allocation , CGFS/PSU staff will
soon reach its maximum capacity for voucher processing.

         Nonetheless, CGFS wants all posts to consider outsourcing to PSU as part of their
workforce planning to avoid potential reductions in force, the associated expenses, and low local
staff morale. CGFS believes all posts should conduct a cost-benefit analysis of PSU usage as
attrition occurs or as vouchering workload increases. Some of the regional bureaus have already
instituted this requirement. Although OIG agrees with this approach, the inspection team
believes that such an analysis would be most useful if conducted annually as part of post
planning activities.

Recommendation 1: The Office of the Under Secretary for Management should implement a
policy that requires overseas posts to include as part of their annual workforce planning a cost-
benefit analysis of outsourcing their voucher processing to the Bureau of the Comptroller and
Global Financial Services Post Support Unit. (Action : M/PRI)

       Other findings and observations based on this survey include the following:

   •   Despite the low cost of CGFS/PSU services, some overseas posts in the same
       geographical region with similar operating environments disagree about the cost-
       effectiveness of outsourcing some of their vouchering to CGFS/PSU.
   •   The Depa11ment has no uniform standard operating procedures for overseas voucher
       processing. Each overseas post develops its own voucher processing standard operating
       procedures and determines the configuration of its voucher unit.
   •   Although the Department has performance standards and metrics for overseas voucher
       examiners, there is a wide variance between the most and least productive posts, based on
       a ratio of vouchers processed per voucher examiner.
   •   At the time of the survey it was unclear whether Integrated Logistics Management
       System and Regional Financial Management System integration will make it easier for
       posts to outsource vender vouchers to CGFS/PSU for remote processing.
   •   Department technological improvements of its financial and administrative systems are
       currently aimed at improving corporate systems rather than increasing the capability of
       PSu.




                                                 4
                          SENSITIVE BUT UN CLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        I would be happy to meet with you to discuss this matter further, or your staff may
contact (b) (6)              Assistant Inspector General for Inspections, by email at
(b) (6)    (. ,sLale.gov or by telephone on 202-663-(b) (6)


Appendices:
      Appendix I:    Comparative Analysis of Voucher Processing Statistics - ICASS Standard
                     Missions
       Appendix II: Comparative Analysis of Voucher Processing Statistics - ICASS Lite
                     Missions
       Appendix III: Voucher Processing Recommendations in OIG Inspection Reports


Enclosures:
       Compliance Sheet
       OIG Resolution Procedures


cc:    CGFS - James L. Millette




                                                 5
                           SENSITIVE BUT UN CLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Abbreviations

CGFS            Bureau of the Comptroller and Global Financial Services
CGFS/PSU        Bureau of the Comptroller and Global Financial Services/Post Support Unit
Department      Department of State
DPSU            Distressed Post Support Unit
ICASS           International Cooperative Administrative Support Services
M/PRI           Bureau of Management, Office of Management Policy, Rightsizing, and
                Innovation
OIG             Office of Inspector General
PSU             Post Support Unit




                                              6
                         SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED

Appendix I: Comparative Analysis of Voucher Processing Statistics - ICASS Standard
            Missions



                                         Total       Current       Current      Cost per
       ICASS       Direct-     LE       Staff to     Total        Workload      Voucher
      Standard      Hire      Staff     Process     Voucher        per LE        Strip
      Missions      FTE       FTE       Voucher     Workload      Staff FTE      Code
  Santo Domingo       0.25      5.50         5.75      21 ,060          3,829      15.64
  Canberra            0.20      6.62         6.82      23 ,989          3,624      27.04
  Berlin              0.17     14.04       14.21       50,614           3,605      48.18
  Bern                0.00      1.05         1.05       3,568           3,398      50 .33
  Vienna              0.15      4.42        4.57       14,591           3,301      41.24
  Dakar               0.50      4.65         5.15      15 , 183         3,265      19.61
  Sarajevo            0.05      4.00        4.05       12,290           3,073      14.30
  Bangkok             0.78     13 .58      14.36       40 ,525          2,984       9.07
  Bogota              0.50     10.50       11 .00      30,559           2,910     23.41
  Jakarta             0. 15     8.40        8.55       24,407           2,906      11.70
  Manila              0.05     10.75       10.80       29,463           2,741       7.09
  Tel Aviv            0.40      9.49        9.89       25 ,622          2,700     27 .62
  Dar Es Salaam       0.35      3.35        3.70        8,739           2,609     21.90
  Ottawa              0.33      7.80        8.13       20,261           2,598     30.76
  Astana              0.30      4.03        4.33       10,178           2,526      19.53
  Santiago            0.32      4.62        4.94       11 ,668          2,526     31.95
  Brussels            0.14      9.53        9.67       23 ,615          2,478     47.64
  Kampala             0.35      3.55        3.90        8,701           2,451      16.42
  Lima                0.3 2     7.71        8.03       18,529           2A03      21.93
  Managua             0.20      3.82        4.02        8,912           2,333     2\.32
  Kyiv                0.30      5.58        5.88       12,928           2,317      15.54
  Quito               0.40      6.00        6.40       13,875           2,313     20.23
  Ankara              0.35      8.65        9.00       19,976           2,309     32 .84
  Abu Dhabi           0.05      4.45        4.50       10,262           2,306     28.41
  Phnom Penh          0.30      4.90        5.20       11 ,295          2,305      18.42
  Tokyo               0.53      8.03        8.56       18,033           2,246     64.52
  Pretoria            0.95     15.45       16.40       34,458           2,230     33 .12
  Amman               0.30      4.20        4.50        8,812           2,098     20.35
  Nairobi             0.50     10.75       11 .25      22,479           2,091     24.55
  Islamabad           0.25     11.75       12.00       24 ,453          2,081      14.14
  Mexico              1.27     22.40       23.67       45 ,797          2,045     29.84
  Madrid              0.45      4.68        5.13        9,414           2,012     38.51
  Hong Kong           0.20      4.85        5.05        9,540           1,967     38 .57

                                           7
                       SENSITIVE BUT UNCLASSIFIED
                   S~NSITIVE      HUT UNCLASSIFIED



                                   Total        Current      Current      Cost per
     ICASS     Direct-    LE      Staff to      Total       Workload      Voucher
   Standard     Hire     Staff    Process      Voucher       per LE        Strip
   Missions     FTE      FTE      Voucher      Workload     StaffFTE       Code
Nassau            0.30     2.60        2.90        5,053         1,943       46.63
Budapest          0.25     5.89        6.14       11,343         1,926      22.42
Brasilia          0.44    10.99      11.43        20,903         1,902      37.61
Beijing           0.75    21.90      22.65        41,378         1,889      28.58
Bucharest         0.45     5.95       6.40        11 ,223        1,886      28.75
Warsaw            0.28     8.60        8.88       16, 194        1,883      26.54
Rabat             0.10     6.45       6.55        11,994         1,860      25.16
Athens            0.15     7.34       7.49        13,590         1,851      38.22
San Salvador      0.19     5.75       5.94        10,638         1,850       19.07
Seoul             0.10     6.05       6.15        11,083         1,832      33.52
Kinshasa          0.26     3.85       4.11         6,658         1,729      33.75
Riyadh            0.15     6.45       6.60        11 ,443        1,774      45 .24
Bamako            0.29     3.24       3.53         5,687         1,755      26.71
Panama            0.37     5.55       5.92         9,524         1,716      28.12
Paris             0.55    11.77      12.32        19,927         1,693      57.61
Guatemala         0.44     5.20       5.64         8,794         1,691      28.28
Tunis             0.35     5.60       5.95         9,205         1,644      23.98
Kuwait            0.15     4.85       5.00         7,821         1,613      35.21
LaPaz             0.45     7.20       7.65        11 ,603        1,612       18.15
Tegucigalpa       0.32     4.35       4.67         6,879         1,581      33.41
Accra             0.45     7.45       7.90        11 ,744        1,576      23.65
London            0.90    13.30      14.20        20,857         1,568      60.73
New Delhi         0.40    19.60      20.00        30,449         1,554       17.36
Buenos Aires      0.17     7.15       7.32        10,859         1,519      31.19
Havana            0.12     3.10       3.22         4,672         1,507      18.17
Kuala Lumpur      0.35     4.60       4.95         6,879         1,495      25.96
Addis Ababa       0.27     7.10       7.37        10,401         1,465       18.47
Moscow            0.49    15.68      16.17        22,544         1,438      32.50
Singapore         0.25     6.10       6.35         8,762         1,436      49.80
San Jose          0.30     5.10       5.40         7,256         1,423      30.11
Caracas           0.27     7.32       7.59         9,952         1,360      40.50
Cairo             0.75    10.80      11 .55       14,586         1,351      34.24
Rome              0.20    13.06      13.26        16,914         1,295      56.08
Colombo           0.15     3.00       3. I 5       3,736         1,245      20.12
Abuja             0.71     9.77      10.48        11,992         1,22 7     38.65
Muscat            0.20     3.25       3.45         3,898         1,199      38.67
                                     8
                  SENSITIVE BUT UN CLASSIFIED
                       SENSITIVE HUT UNCLASSIFIED



                                           Total     Current       Current      Cost per
     ICASS         Direct-     LE        Staff to     Total       Workload      Voucher
   Standard         Hire      Staff      Process    Voucher        per LE        Strip
    Missions        FTE       FTE       Voucher Workload          Staff FTE      Code
 Conakry              0.30       2.00         2.30        2,090         1,045      33.67
 Port-au-Prince       0.45       8.10         8.55        7,450           920      48.43
 Abidjan              0.20       5.75         5.95        4,560           793      51.87
 Belgrade             0.15       4.00         4.15        2,998           750      29.95
Note: FTE, full-tIme equivalent; LE, locally employed (staff).
Source: ICASS Web site.




                                            9
                       SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE HlJT lJNCLASSIFIED

Appendix II: Comparative Analysis of Voucher Processing Statistics - ICASS Lite
             Missions




                I                       Total       Current       Current
     ICASS          Direct-     LE     Staff to      Total       Workload     Unit Cost for
       Lite          Hire      Staff   Process      Voucher       per LE       Financial
   Missions          FTE       FTE     Voucher      Workload     Staff FTE      Services
Yere van               0.50     6.30        6.80       26,736         4,244            15.69
Podgorica              0.08     1.80        1. 88       6,786         3,770            15.46
Jerusalem              0.90     9.05        9.95       33,865         3,742           22.65
Riga                   0.20     4.30        4.50       15.791         3.672            13 .89
Windhoek               0.63     5.00        5.63       17,583         3,517           24.31
Dublin                 0.25     4.75        5.00       16,695         3,515           41.08
Dushanbe                1.10    5.80        6.90       18,831         3,247           23.46
Skopje                  1.00    4.35        5.35       13,921        3200             29.22
Chisinau               0.65     5.95        6.60       18,975        3. 189            13.88
Oslo                   0.25     4.80        5.05       15,233        3, 174           40.46
Kigali                  1.10    6.00        7.10       18,817        3,136             17.03
Rangoon                 1.00    5.70        6.70       17,622        3,092            22.11
Vilnius                0.76     5.00        5.76       15,391        3,078            23.37
Hanoi                   1.21   13.70       14.91       42,094        3,073             14.83
Damascus                1.05    4.95        6.00       14,328        2,895            34.61
Wellington             0.40     6.70        7.1 0      19,241        2,872            30.55
Helsinki               0.35     4.90        5.25       13,666        2.789            39.52
Paramaribo             0.20     3.10        3.30        8.638        2,786            15.09
Tashkent               0.90     5.65        6.55       15,734        2,785             19.97
Kathmandu              0.95    10.00       10.95       27,799        2,780             17.68
Montevideo             0.05     6.35        6.40       17,515        2,758            27.26
Vientiane              0.25     5.95        6.20       15,825        2,660              8.76
Tirana                 0.60     5.70        6.30       14,784        2,594             18.32
Bridgetown              1.00    8.05        9.05       20,530        2.550            35.07
Geneva                  1.15    6.55        7.70       16,677        2.546            97.99
Harare                  1.15    7.85        9.00       19,675        2,506            25.61
Zagreb                 0.75     8.60        9.35       21,321        2,479            39.36
Pristina               0.55     6.00        6.55       14,551        2,425            21.76
The Hague              0.28     8.90        9.18       21,458        2,411            50.22
Port of Spain          0.20     4.52        4.72       10,830        2,396            21.49
Tblisi                  1.22   10.80       12.02       25 ,277       2,340            25.87
Djibouti               0.90     5.25        6. 15      12,277        2.338            39.87
Majuro                 0.00     0.55        0.55        1,285        2,336             17.39
                                              10
                          SENSITIVE BUT UNCLASSIFIED
                     SENSlTlVE BUT UNCLASSlFIED



                                   Total       Current       Current
     ICASS     Direct-     LE     Staff to      Total       Workload     Unit Cost for
      Lite      Hire      Staff   Process      Voucher       per LE       Financial
   Missions     FTE       FTE     Voucher      Workload     StaffFTE       Services
Bratislava         0.15    5.15        5.30        12,005        2,331            22.68
Reykjavik          0.20    1.95        2.15         4,484        2,299           59.37
Dili               0.20    2.70        2.90         6,184        2,290            25.34
Nicosia           0.45     4.70        5. 15       10,690        2,274           51.97
Ashgabat          0.60     5.90        6.50       13,343         2,262           22.21
Belmopan          0.20     4.65        4.85       10,171         2,187           24.80
Yaounde            1.10    9.35       10.45       20,273         2,168           29.33
Suva               1.35    4.20        5.55         9,095        2,165           35.20
Ouagadougou       0.15     7.80        7.95       16,509         2,117           23.23
Dhaka             0.75    11.05       11.80       23,371        2,115            17.75
Khartoum          0.90     8.05        8.95       16,973        2,108            34.28
Prague            0.55     7.95        8.50       16,747        2,107            26.44
Manama            0.95     5.74        6.69       12,070        2,103            45.69
Tallinn           0.30     5.00        5.30       10,504        2,101            40.34
Valletta          0.30     2.95        3.25         6,154       2,086            26.18
Bishkek           1.00     6.10        7.10       12,515        2,052            24.92
                                                 -
Algiers           1.05     7.10        8.15       14,353        2,022            37.30
Georgetown        0.25     6.20        6.45       12,422        2,004            14.45
Copenhagen        0.20     5.81        6.01       11,576         1,992           43.94
Baku              0.50     7.25        7.75       14,442         1,992           28 .99
Stockholm         0.27     7.85        8.12       15,498         1,974           57.93
Niamey             1.10    5.70        6.80       10,994         1,929           36.84
Asuncion           1.08    7.13        8.21       13,704         1,922           30.28
Port Louis        0.30     2.65        2.95         5,057        1,908           33.13
Curacao           0.35     2.00        2.35         3,809        1,905           68.82
Praia             0.20     2.95        3.15         5.564        1.886           37.00
Sofia             0.60     9.00        9.60       16.790         1.866           23.40
Lilongwe           1.05    6.78        7.83       12,5 66        1,853           29.57
Hamilton          0.15     l.35        l.50         2,483        1,839           89.00
Beirut             l.00    7.50        8.50       13,678         1,824           46.41
Antananarivo      1.05     6.76        7.81       12,326         1,823           27.21
Sanaa             1.00    12.05       13.05       21 ,828        1,811           39.14
Maputo             1.05   12.97       14.02       23,445         1,808           30.66
Brazzaville       0.25     4.00        4 .25        7,154        1,789           21.84
Doha               1.00    4.79        5.79         8,526        1,780           76.89
Ljubljana         0.35     5.70        6.05       10, 143        1,779           50.21

                                        II
                     SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE HUT UNCLASSUIEU




                                           Total       Current        Current
    ICASS          Direct-     LE         Staff to      Total        Workload      Unit Cost for
      Lite          Hire      Staff       Process      Voucher        perLE         Financial
   Missions         FTE       FTE         Voucher     Workload       Staff FTE       Services
Minsk                  0.15    4.95             5.10         8,553        1,728            20.47
Mbabane                0.20    4.00             4.20         6,697        1,674            35.83
Ulaanbaatar            0.30     7.73            8.03        12,796        1,655            24.48
Contonu                1.10     5.90            7.00         9,723        1.648            51.43
Luanda                 1.05     6.00            7.05         9,751        1,625            59.37
Freetown               0.35    4.65             5.00         7,547        1,623            21.92
Lome                   1.00     6.20            7.20        10,034        ] ,618           34.42
Maseru                 0.24    4.00             4.24         6,395        1,599            30.43
Gaborone               1.05   12.00            13.05        18,636        1,553            40.34
Lusaka                 1.05    7.00             8.05        10,834        1,548            51.31
Libreville             0.50     5.85            6.35         8,433        1.442            57.8 6
Monrovia               1.10     9.00           10.10        12,860        1,429            56.29
Lisbon                 0.50     6.55            7.05         9,247        1,412            63.42
Ndjamena               1.15    8.00             9.15        11,284        1,411            47.51
Bujumbura              0.70     6.70            7.40         9,252        1,381            34.66
Banjul                 0.15    4.05             4.20         5,396        1,332             16.25
Kabul                  0.85   23.60            24.45       30,835         1,307            58.28
Luxembourg             0.25    2.90             3.15         3,774        1,301           110.86
Koror                  0.00    0.95             0.95         1,213        1,277             12.56
Kingston               1.15    9.00            10.15        11,311        1,257            51.14
Nouakchott             0.05    9.30             9.35        10,488        1, 128           26.32
Asmara                 0.25    4.10             4.35         4,116        1,004            37.96
Tripoli                1.00     7.15            8.15         7,053           986           52.90
Kolonia                0.15     1.05            1.20           940           895            34.92
                                                          -
Banqui                 0.25    4.00             4.25         2,424           606           49.82
Note: FTE, full-time equivalent; LE,   locally employed (staff).
Source: lCASS Web site.




                                                12
                         SENSITIVE BUT UNCLASSIFIED
                          (,)~J'\j(,)lll   V ~ til) 1    l)l~LLA:"S:"Sl~l~U




Appendix III: Voucher Processing Recommendations in OIG Inspection Reports

Inspection of Embassy Santo Domingo, Dominican Republic (ISP-I-Il-40A, May 2011)

Recommendation 23: Embassy Santo Domingo should outsource its travel advance and voucher
payment function to the Department of State's Financial Service Centers' post support units.
(Action: Embassy Santo Domingo)

Inspection of Embassy Bogota, Columbia (ISP-I-11-41A, June 2011)

Recommendation 20: Embassy Bogota should continue to outsource its travel voucher payment
function to the Department's Financial Services Centers' post support units until it has
eliminated its backlog of unprocessed vouchers and has demonstrated that it can manage the
workload without such assistance. (Action: Embassy Bogota)

Inspection of Embassy San Jose, Costa Rica (ISP-I-12-23A, May 2012)

Recommendation 9: Embassy San Jose should process all travel vouchers through the Post
Support Unit and implement a plan to outsource other categories of vouchers to the Post Support
Unit. (Action: Embassy San Jose)

Recommendation 10: Embassy San Jose should implement a plan to rightsize staffing in its
financial management unit based on workload analysis, outsourcing of voucher processing, and
comparable staffing at similarly sized embassies. (Action: Embassy San Jose)

Inspection of Embassy Singapore, Singapore (ISP-I-12-36A, June 2012)

Recommendation 16: Embassy Singapore should outsource its travel advance and travel voucher
processing payment functions to the Bureau of Resource Management's post support units.
(Action: Embassy Singapore)

Inspection of Embassy Tokyo, Japan (ISP-I-08-39A, June 2008)

Recommendation 12: Embassy Tokyo, in coordination with the Bureau of Resource
Management Global Financial Services, should initiate a phased-in transfer of the voucher
processing function from Embassy Tokyo to the Post Support Unit in Bangkok. (Action:
Embassy Tokyo, in coordination with RM/GFS)

Inspection of Embassy Islamabad, Pakistan (ISP-I-IO-64A, June 2010)

Recommendation 20: The Bureau of Resource Management, in coordination with Embassy
Islamabad and the Bureau of South and Central Asian Affairs, should review the feasibility of a
pilot program to move offshore the tracking of new position startup costs, partial-year invoices,
voucher processing, and temporary duty traveler invoices for Mission Pakistan. (Action: RM, in
coordination with Embassy Islamabad and SCA)




                                                    13
                          SENSITIVE BUT UNCLASSIFIED
Inspection of Embassy Luxembourg, Grand Duchy of Luxembourg (ISP-I-1l-17A, January
2011)

Recommendation 15: Embassy Luxembourg should contact the Bureau of Resource
Management' s post support unit to determine the cost and feasibilit y of pro viding remote
voucher processing and initiate that function if appropriate. (Action: Embassy Luxembourg, in
coordination with RM)




                                              14
                         SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED


                       COMPLIANCE INFORMATION SHEET AND INSTRUCTIONS
                                FOR OIG INSPECTION REPORTS

                                               Compliance Contacts:
(b) (6)




          Office ofInspections, Office of Inspector General , U.S . Department of State, SA-39, (b) (6)

          Response Due Date: 30 days from receipt of thi. c-h'an 'mittal

          Below is a list of the reports and recommendations assigned to action and coordinating entities.
          Instructions on how to submit compliance updates are provided on the following pages.

          PRODUCT NAME: MEMORANDUM REPORT - REVIEW OF VOUCHER
          PROCESSING, ISP-I-13-01


          Action Entity:                               Recommendation(s):
          M/PRI                                         1




                                                     1
                                        SENSITIVE BUT UNCLASSIFIED
                              ~~l~~IIIV~     nUl   Ul~LLf\.~~ll'l~1J




                     Compliance Instructions for OIG Inspection Reports

Action Entities

1. Action entities should, via a record e-mail, list each recommendation by number and text
verbatim along with a detailed discussion indicating agreement or disagreement with the
recommended action for each recommendation within 30 days from the receipt of this e-
transmittal of the report.

       a. The record e-mail should indicate the appropriate clearances.
       b. The ACTION line should be addressed to the ISP compliance contacts on page one-
          the assigned analyst and the supervisory analyst.
       c. The SUBJECT line should include the report title and report number.
       d. The record e-mail must be tagged ASIG, and at a minimum should be captioned
          sensitive or with the overall highest classification of the applicable text or
          recommendations issued in the report.
       e. Action entities are reminded to properly portion mark paragraphs in classified record
          e-mails.

2. For agreement, include corrective actions taken or planned , and actual or target dates for
completion. For disagreement, action entities must include reasons for disagreement, and any
alternative proposals for corrective action .

3. Action entities should also indicate in the response that they have sought and received the
concurrence of the assigned coordinating entities.

4. If questioned or unsupported costs are identified. state the amount that is determined to be
disallowed and the plan to collect the disallowed funds. Iffunds put to better use are identified ,
then state the amount that can be put to better use (if these amounts differ from OIG's, state the
reason).

5. Implementation of informal recommendations is expected, however, a written response is not
required.

Coordinating Entities

1. Coordinating entities are not required to initiate action on recommendations. Coordinating
entities are to be consulted by the assigned action entity for concurrence on a proposed action to
implement the recommendation.

2. However, in the event that a coordinating entity disagrees with an action entity ' s proposed
plan of action, the coordinating entity is encourage, but not obliged , to submit a response to OIG
for consideration in OIG's analysis on whether the cited action meets the intent of the
recommendation .


                                           2
                              SENSITIVE BUT UNCLASSIFIED
OIG Analysis of Response

1. If OIG concurs with a response to a recommendation, it will note, in the analysis
correspondence, that it concurs with the action entity's management decision. And, OIG will
indicate whether the recommendation is closed for acceptable implementation or indicate its
status as resolved/open if action is still pending and assign a follow-on suspense for a
compliance update. Implementation measures will be tracked until final action is accomplished
and the recommendation is closed .

2. If OIG does not concur with the action office's proposed corrective action, or if the action
office fails to respond to a recommendation or rejects it, OIG will identify the recommendation
as unresolved. OIG will attempt to resolve the disagreement at the action office level. However,
ifOIG determines that an impasse has been reached , it will refer the matter for adjudication as
outlined in 1 F AM 056. 1, 1 F AM 053 .2-2 , and 1 F AM 056.2-1 (I).

3. In accordance with the Inspector General Act of 1978, as amended, OIG is required to report
to Congress semiannually on April 1 and October 1 of each year, a summary of each OIG report
issued for which no management decision was made during the previous 6-month period. Heads
of agencies are required to report to Congress on significant recommendations from previous
OIG reports where final action has not been taken for more than one year from the date of
management decision, together with an explanation of delays.




                                               3
                             SENSITIVE BUT UNCLASSIFIED
